E-Mail Address: 775 H Street, N.E.

Est oa briefs@wilsonepes.com Washington, D.C. 20002
WSO PNG Web Site: Tel (202) 789-0096
ewes www.wilsonepes.com Fax (202) 842-4896
No.

COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS, Petitioner
v.

MATTHEW REEVES, Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on February 5, 2021, the following counsel have expressly waived
service of paper copies by mail and have requested electronic service and that true and correct
electronic copies of the PETITION FOR A WRIT OF CERTIORARI were served on the following
counsel at the e-mail addresses indicated:

BENJAMIN FRIEDMAN

SIDLEY AUSTIN LLP

One South Dearborn Street
Chicago, IL 60603
312-853-7841
benjamin.friedman@sidley.com

Counsel for Respondent Matthew Reeves

L. WA,

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 5th day of February 2921.
i

 
   
  
 

COLIN CASEY
NOTARY PUBL!
District of Columbia

My commission expires April 14, 2022.

 
